                                Office of Inspector General
                               Corporation for National and
                                        Community Service




    AUDIT OF CORPORATION FOR NATIONAL
  AND COMMUNITY SERVICE GRANT AWARDED
   TO HOME INSTRUCTION FOR PARENTS OF
       PRESCHOOL YOUNGSTERS, USA
                  OIG REPORT 07-10




                        Prepared by:

              Mayer Hoffman McCann P.C.
           Conrad Government Services Division
                    2301 Dupont Drive
                 Irvine, California 92612



This report was issued to Corporation management on November 22, 2006.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than May 22, 2007 and complete its corrective
actions by November 22, 2007. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                          OFFICE OF INSPECTOR GENERAL
                                   November 22, 2006

TO:           Kristin McSwain
              Director AmeriCorps State*National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Carol Bates /s/
              Assistant Inspector General for Audit

SUBJECT:      Audit Report 07-10, Audit of the Corporation for National and Community
              Service Grant Awarded to Home Instruction for Parents of Preschool Youngsters,
              USA (HIPPY)

We contracted with the independent certified public accounting firm of Mayer Hoffman McCann
P.C. (MHM) to audit AmeriCorps Grant 04NDHNY001 awarded to HIPPY. The contract
required that MHM conduct the audit in accordance with generally accepted government
auditing standards.

In its audit of HIPPY, MHM found:

   •   Questioned costs of $19,960 due mostly to lack of documentation to support the claimed
       costs, but also includes $1,565 of costs for entertainment.

   •   Question costs of $29,275 for non-grant costs related to education awards to AmeriCorps
       members because citizenship/eligibility documentation was not located.

   •   Six findings on internal controls and compliance with grant terms.

MHM is responsible for the attached auditor’s report, dated September 6, 2006, and the
conclusions expressed therein. We do not express opinions on HIPPY’s Consolidated Schedule
of Award Costs, conclusions on the effectiveness of internal controls, or compliance with laws,
regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by May 22, 2007. Notice of final action is due by November 22, 2007.




                        1201 New York Avenue, NW Suite 830, Washington, DC 20525
                           202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                            Senior Corps   AmeriCorps   Learn and Serve America
If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Elizabeth Seale, Chief Operating Officer
      Jerry Bridges, Chief Financial Officer
      Sherry Wright, Audit Resolution Coordinator
      Ronald L. Conrad, CPA, Mayer Hoffman McCann P.C.
      Sandee Bennett, Interim Executive Director, Home Instruction
          for Parents of Preschool Youngsters, USA
             Audit of Corporation for National and Community Service
     Grant Awarded to Home Instruction for Parents of Preschool Youngsters, USA

                                              TABLE OF CONTENTS
                                                                                                                          Page
REPORT SUMMARYAND HIGHLIGHTS

        Executive Summary ............................................................................................. 1

        Background .......................................................................................................... 2

        Objectives, Scope, and Methodology .................................................................. 2

        Grant Programs Audited ...................................................................................... 3

        Costs Questioned ................................................................................................. 4

        Compliance and Internal Control Findings .......................................................... 4

INDEPENDENT AUDITOR'S REPORT ....................................................................... 5

FINANCIAL SCHEDULES

        Consolidated Schedule of Award Costs ............................................................... 7

        Exhibit A – Schedule of Award and Claimed Costs ............................................ 8

        Schedule A-1 – Advocates for Children .............................................................. 9

        Schedule A-2 – Homey’s Youth Foundation ....................................................... 10

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE
   AND INTERNAL CONTROL.................................................................................. 11

        Compliance Findings ........................................................................................... 12

        Internal Control Finding ...................................................................................... 22

        Internal Controls Over Financial Reporting ........................................................ 24

APPENDICES

        A: Response to the Draft Report by Home Instruction for Parents
           of Preschool Youngsters, USA

        B: Response to the Draft Report by Corporation for National and
           Community Service
REPORT SUMMARY AND HIGHLIGHTS
          Mayer Hoffman McCann P.C.
          An Independent CPA Firm
          Conrad Government Services Division
          2301 Dupont Drive, Suite 200
          Irvine, California 92612
          949-4742020 ph
          949-263-5520 fx
          wwwmhm-pc.com




Office of Inspector General
Corporation for National and Community Service


This report is issued under an Office of Inspector General (OIG) engagement with Mayer
Hoffman McCann P.C. to audit the costs claimed by Home Instruction for Parents of
Preschool Youngsters, USA (HIPPY) and its subgrantees from August 16, 2004, through
March 31, 2006, under a grant awarded by the Corporation for National and Community
Senrice (Corporation). This report focuses on the audit of claimed costs, instances of
noncompliance with Federal laws, applicable regulations or award conditions, and internal
control weaknesses disclosed during the audit.

                                         Executive Summary

HIPPY claimed total costs of $465,897 for the period audited. Of this total, we questioned
$19,960. We also questioned $29,275 for related member education awards, which are not
included as costs claimed by HIPPY but are earned when a member satisfies specific
requirements under grants to HIPPY. A questioned cost is an alleged violation of provision
of law, regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; a finding that, at the time of the audit, such cost is not
supported by adequate documentation; or a finding that the expenditure of funds for the
intended purpose is unnecessary or unreasonable.

Our audit included fieldwork at the parent organization as well as testing of two subgrantees:
Homey's Youth Foundation and Advocates for Children. Our testing at Advocates for
Children was limited to testing costs claimed and documents included in the member files
that would affect costs. The OIG requested that we not test controls because this subgrantee
ceased operation prior to the end of the grant period.

Deficiencies found at the parent organization include:

           late submissions of Financial Status Reports (FSRs);
           accounting duties ineffectively segregated;
           understated costs claimed on the FSR;
           overstated costs drawn down on the Standard Form 272 reports; and
           inadequate fiscal monitoring of subgrantees.
Deficiencies found at the subgrantee locations:

     •       lack of an audit trail from subgrantee accounting system to costs claimed;
     •       late member data reporting;
     •       member files lacking citizenship documentation;
     •       member evaluations not performed;
     •       unsupported costs claimed;
     •       unallowable entertainment costs claimed;
     •       personnel costs claimed based on budget rather than actual data; and
     •       internal control weakness due to improper segregation of duties.

The report includes six findings and eight recommendations to improve the grantee’s internal
controls and its compliance with grant provisions.

                                          Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants to grantees referred to as National Directs, such as HIPPY,
and other entities to assist in the creation of full-time and part-time national and community
service programs.

HIPPY is an international organization headquartered in New York City. Its administrative
office is currently staffed with seven full-time employees, one part-time employee, and an
Executive Director. Its mission is to assist parents in educating their children. In performing
their service with HIPPY, AmeriCorps members visit homes to instruct parents on the use of
specialized educational materials.

The Corporation funded HIPPY with a $753,416 AmeriCorps National Direct Program grant,
No. 04NDHNY001, and it has claimed costs of approximately $465,897. HIPPY processed
drawdowns of $532,707 during the period under review and awarded in excess of $425,800
to its subgrantees.

                             Objectives, Scope, and Methodology

We performed our audit during the period July 24, 2006, through September 6, 2006, and
used methodologies we deemed appropriate for the scope of the audit. Our Independent
Auditor’s Report and our Independent Auditor’s Report on Compliance and Internal Control
provides additional details about the scope and methodology. The objectives of our audit
were to determine whether:

         •   HIPPY’s financial reports fairly presented the financial results of the award;

         •   internal controls were adequate to safeguard Federal funds;




                                                2
       •   HIPPY had adequate procedures and controls to ensure compliance with Federal
           laws, regulations, and award conditions, as well as ensure that member services
           were appropriate; and

       •   award costs reported to HIPPY were documented and allowable in accordance
           with the award terms and conditions.

We performed the audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the amounts claimed against
the awards, as presented in the Consolidated Schedule of Award Costs, are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Consolidated Schedule of Award Costs. An audit also includes
assessing the accounting principles used and significant estimates made by the auditee, as
well as evaluating the overall financial schedule presentation. Our audit included reviews of
audit reports prepared by the independent public accountants for the subgrantees in
accordance with the requirements of OMB Circular A-133, Audits of States, Local
Governments and Non-profit Organizations. We believe our audit provides a reasonable
basis for our opinion.

The contents of this report were disclosed to and discussed with HIPPY at an exit conference
held on August 31, 2006. In addition, the OIG provided a draft of this report to HIPPY and
to the Corporation for comment on October 6, 2006. Their responses are included as
Appendices A and B, respectively.

                                 Grant Programs Audited

Our audit of HIPPY covered financial transaction and compliance and internal controls
testing of grant award 04NDHNY001 for the AmeriCorps National Direct Program, as
follows:

Award Period: 08/16/04 to 08/15/07          Audit Period: 08/16/04 to 03/31/06




                                             3
                                      Costs Questioned

The following table summarizes the costs questioned:

                                                                Amount
                        Reason for Questioned Cost
                                                               Questioned
                 Personnel costs claimed based on budget          $ 4,820
                 Credit card transactions not supported              9,006
                 Entertainment costs (Unallowable)                   1,565
                 Costs not reconciled to accounting system           4,569
                    Total Grant Costs Questioned                  $ 19,960
                    Total Education Awards Questioned             $ 29,275

We used a judgmental sampling method to test the costs claimed at the parent organization,
but tested all expenditures at two subgrantee locations. Based upon this sampling plan,
questioned costs in this report may not represent total costs that may have been questioned
had all expenditures been tested. We have made no attempt to project such costs to total
expenditures incurred, based on the relationship of costs tested to total costs. For a complete
discussion of these questioned costs, refer to the Independent Auditor’s Report.

                        Compliance and Internal Control Findings

Compliance Findings:

Our audit disclosed the following instances of noncompliance with Federal laws, regulations,
and award conditions:

   1. HIPPY did not have adequate financial monitoring or other procedures in place to
      ensure that its subgrantees claimed costs in accordance with OMB’s principles or
      grant provisions.
   2. HIPPY did not have adequate procedures in place to ensure that its subgrantees
      documented member eligibility.
   3. HIPPY did not fully monitor subgrantee compliance with grant provisions.
   4. Late Submission of Financial Status Reports (FSR).
   5. Inaccurate reporting of FSRs.

Internal Control Finding:

   6. Roles were not properly segregated within the parent organization and one of its
      subgrantees.




                                              4
-        ' Mayer Hoffman McCann PC.
           An Independent CPA Firm
          Conrad Government Services Division
          2301 Dupont Drtve, Su~te200
          Irvlne, Callfornla 92612
          949-4742020 ph
          9442655520 fx
          wwwmhrn-pc.com




Office of Inspector General
Corporation for National and Community Service


                            INDEPENDENT AUDITOR'S REPORT


We have audited the costs incurred by HIPPY for the award number listed below. These
costs, as presented in the Consolidated Schedule of Award Costs and the grant-specific
Schedules of Award Costs (Exhibit A), are the responsibility of HIPPY management. Our
responsibility is to express an opinion, based on our audit, on the Consolidated Schedule of
Award Costs.

     AmeriCnrps Award Number                 Award Period              Audit Period
           04NDHNY001                      08/16/04 to 08/15/07     08/16/04to 03/31/06

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial schedules are
free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the fvlancial schedules. An audit also includes
assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial schedule presentation. We believe our audit provides
a reasonable basis for our opinion.

In our opinion, except for the $19,960 in questioned grant costs discussed above, the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
(Exhibit A and related Schedules) referred to above present fairly, in all material respects, the
costs claimed for the period August 16, 2004, to March 31, 2006, in conformity with
generally accepted accounting standards in the United States of America.

In accordance with the Government Auditing Standards, we have also issued our report,
dated September 6, 2006, on our consideration of HIPPY'S intemal controls over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements and other matters. The purpose of that report is to describe
the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on the intemal control over financial
reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditinx- Standards and should be considered in assessing the
results of our audit.




Mayer Hoffman McCann P.C.
Irvine, California
September 6,2006
               Corporation for National and Community Service Awards
                                        HIPPY
                        Consolidated Schedule of Award Costs

                               August 16, 2004, to March 31, 2006


                                                                    Questioned
 AmeriCorps        Approved                            Questioned   Education
Award Number        Budget         Claimed Costs         Costs       Awards      Reference

04NDHNY001         $ 753,416         $ 465,897         $ 19,960     $ 29,275     Exhibit A




                      Notes to Consolidated Schedule of Award Costs

Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under the AmeriCorps National Direct grant from the Corporation
for the period from August 16, 2004, to March 31, 2006.

HIPPY awards its AmeriCorps grant funds to subgrantees that administer AmeriCorps
programs and report financial and programmatic results to the grantee.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and HIPPY. The information presented in the Schedule
has been prepared from the reports submitted by HIPPY to the Corporation. The basis of
accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

       Inventory
       Minor materials and supplies are charged to expense during the period of purchase.




                                                   7
                                                                                 Exhibit A

                                          HIPPY
                            Schedule of Award and Claimed Costs
                                Award Number 04NDHNY001
                             August 16, 2004, to March 31, 2006



                                                                               Questioned
                                          Claimed      Costs      Questioned   Education    Schedule
            Audit Details                  Costs       Tested       Costs       Awards      Reference

HIPPY Parent                              $ 181,229 $ 119,261      $ -

Subgrantees
 Advocates for Children**                 $ 37,613      37,613     $ 4,820          -         A-1
 Homey’s Youth Foundation*                   97,466     97,466      15,140       29,275       A-2
 Family Support Services of West Hawaii      53,149                   -             -
 Sunrise Children Foundation                 32,202                   -             -
 Oregon Child Development Coalition          64,238        -          -             -
            Subgrantee Total              $ 284,668   $ 135,079    $19,960     $ 29,275

                    Total                 $ 465,897   $ 254,340   $ 19,960     $ 29,275

* Selected for Full-scope Testing
** Selected for Testing Costs Claimed Only




                                               8
                                                                            Schedule A-1

                                        HIPPY
                               Schedule of Award Costs
                            Award Number 04NDHNY001
                           August 16, 2004, to March 31, 2006

                          New Jersey - Advocates for Children



                                                                                Reference

Approved Budget (Federal Funds)                                 $84,948           Note 1
Claimed Costs                                                   $37,613           Note 2
Questioned Costs
   Personnel costs overstated                         $4,820                      Note 3

Total Questioned Costs                                             $4,820


Notes

1. The amount shown above as Approved Budget represents the total funding to Advocates
   for Children, for the first year according to budget schedules.

2. Claimed costs represent Advocates for Children reported expenditures for the period
   August 16, 2004, through March 31, 2006.

3. The computation for claiming personnel costs was based on budgeted, rather than actual,
   salary figures, resulting in costs claimed in excess of actual costs incurred (see
   Questioned Compliance Finding No. 1).




                                            9
                                                                            Schedule A-2

                                        HIPPY
                               Schedule of Award Costs
                            Award Number 04NDHNY001
                           August 16, 2004, to March 31, 2006
                         California – Homey’s Youth Foundation



                                                                                 Reference
Approved Budget (Federal Funds)                                  $174,250          Note 1
Claimed Costs                                                    $ 97,466          Note 2
Questioned Costs
  Costs not reconciled to general ledger          $     4,569                      Note 3
  Unsupported credit card charges                       9,006                      Note 4
  Unallowable entertainment costs claimed               1,565                      Note 5
Total Questioned Costs                                           $ 15,140
Questioned Education Awards:
  Lacking citizenship documentation               $   29,275                       Note 6
Total Questioned Education Awards                                $ 29,275
Notes

1. The amount shown above as Approved Budget represents the total funding to Homey’s
   Youth Foundation according to budget schedules.
2. Claimed costs represent Homey’s Youth Foundation’s reported expenditures for the
   period August 16, 2004, through March 31, 2006.
3. Subsidiary records were not reconcilable to costs claimed on the monthly invoices
   submitted to HIPPY USA for program years 2004 through 2006 (see Compliance Finding
   No. 1).
4. Credit card charges claimed to the grant lacked either monthly statements, receipts
   supporting the statements or both (see Compliance Finding No. 1).
5. The cost of entertainment totaling $1,565 was claimed to the grant for a “fun night out”
   for the AmeriCorps members at Disneyland during the 2004/2005 State Conference (see
   Compliance Finding No. 1.)
6. Member eligibility was not verifiable because citizenship documentation was not located
   for fifteen members. As a result, the education awards were questioned (see Compliance
   Finding No. 3).



                                            10
           Mayer Hoffman McCann P.C.
           An Independent CPA Firm
          Conrad Government Services Division
          2301 Dupont Drive, Suite 200
          irvine, California 92612
          949-474-2020 ph
          949-2655520 fx
          wwwmhrn-pc.com




 Office of Inspector General
 Corporation for National and Community Service


                         INDEPENDENT AUDITOR'S REPORT ON
                        COMPLIANCE AND INTERNAL CONTROL


 We have audited the Schedules of Award Costs, as presented in Exhibit A, which summarize
 the claimed costs of HIPPY under the Corporation grant listed below, and have issued our
 report thereon, dated September 6,2006.

        Promam             Award Number               Award Period            Audit Period
AmeriCorps National Direct 04NDHNY001              08/16/04 to 08/15/07   08/16/04 to 03/31/06
 We conducted our audit in accordance with auditing standards generally accepted in the
 United States of America and generally accepted government auditing standards issued by
 the Comptroller General of the United States.

                                     Compliance and Other Matters

 Compliance with laws, regulations, and the provisions of the awards is the responsibility of
 HIPPY'S management. As part of obtaining reasonable assurance about whether the
 financial schedules are free of material misstatement, we performed tests of compliance
 with certain provisions of laws, regulations, and the terms and conditions of the awards,
 noncompliance with which could have a direct and material effect on the determination of the
 amounts on the financial schedules. However, providing an opinion on compliance with
 those provisions was not an objective of our audit, and accordingly, we do not express such
 an opinion. The results of our tests disclosed instances of noncompliance or other matters
 that are required to be reported under Government Auditing Standards and which are
 described in the Compliance Findings section of this report. Instances of noncompliance
 include non-adherence to requirements, or violations of prohibitions contained in statutes,
 regulations, and the award provisions.
  Compliance Findings

  The results of our tests disclosed the following instances of noncompliance with grant terms:

  Finding 1: HIPPY did not have adequate financial monitoring or other procedures in
             place to ensure that its subgrantees claimed costs in accordance with grant
             provisions or OMB’s principles.

  HIPPY claimed costs that did not comply with AmeriCorps Provisions or the Office of
  Management and Budget’s (OMB) cost principles. As a result, we questioned $19,960 of
  costs claimed to the Corporation, as follows:

                                                                              Federal
         Description                       Entity               Schedule       Share      Criteria
Unsupported Personnel Costs        Advocates for Children        A-1         $ 4,820        (1)
Unsupported Credit Card Charges   Homey’s Youth Foundation       A-2            9,006       (1)
Unreconcilable Costs              Homey’s Youth Foundation       A-2            4,569       (1)
Entertainment Costs               Homey’s Youth Foundation       A-2            1,565       (2)
    Total Questioned Costs                                                   $ 19,960

  We determined that a lack of thorough fiscal monitoring of HIPPY’s subgrantees caused
  these costs to be claimed. HIPPY utilized a monitoring tool which encompassed aspects of
  fiscal monitoring, but the tool was not detailed to the point that transaction testing was
  performed. We also noted that HIPPY did not perform its 2004 monitoring visit at
  Advocates for Children. This finding is also considered to be an internal control weakness.

  Criteria

  (1) AmeriCorps Provisions are binding on the grantee. AmeriCorps General Provisions
      (2004-2005), sub section 22.b, states:

          Source Documentation. The Grantee must maintain adequate supporting
          documents for its expenditures (federal and non-federal) and in-kind
          contributions made under this grant. Costs must be shown in books or
          records [e.g., a disbursement ledger or journal], and must be supported by a
          source document, such as a receipt, travel voucher, invoice, bill, in-kind
          voucher, or similar document.

  (2) OMB Circular A-122, Cost Principles for Non-Profit Organizations, (hereafter OMB
      A-122) Attachment B, Paragraph 14, states:

          Entertainment costs.       Costs of entertainment, including amusement,
          diversion, and social activities and any costs directly associated with such
          costs (such as tickets to shows or sports events, meals, lodging, rentals,
          transportation, and gratuities) are unallowable.



                                               12
Recommendations

Recommendation 1: The Corporation determine the allowability of the questioned costs,
recover unallowable costs that were charged to the grant, including administrative costs, and
ensure that HIPPY improves its fiscal monitoring so that costs are incurred and claimed in
compliance with the cost principles and grant terms.

Recommendation 2: The Corporation ensure, in view of the prior lack of supporting
documentation, that HIPPY pay only that portion of future HOMEY invoices that are
supported by documentation sufficient to determine the allowability of submitted costs.

HIPPY’s Response

HIPPY concurs with the finding but has obtained further supporting documentation available
for the Corporation’s Office of Grants Management to review. HIPPY stated that it would
pay for expenses that could not be clearly linked back to the AmeriCorps budget.

HIPPY took positive action and required its AmeriCorps Directors and Assistant Directors to
attend training in August 2006 in which fiscal monitoring was discussed. The Corporation
also assisted with a presentation about documentation of match funding. HIPPY has also
implemented a policy requiring a financial desk audit twice a year and is considering
alternative solutions for fiscal monitoring.

Auditor’s Comment

We believe that the actions taken by HIPPY are appropriate. The Office of Grants
Management may be able to allow some of the questioned costs if supporting documentation
is adequate.




                                             13
Finding 2: HIPPY did not have adequate procedures in place to ensure that its
           subgrantees documented member eligibility.

Our tests showed that AmeriCorps member proof of citizenship documentation was not
available for review for 15 of Homey’s Youth Foundation’s 66 members. Living allowances
were not paid from Corporation funds, so these exceptions affected only education awards.
With regard to the 15 exceptions, 7 members had completed service and 8 members were still
serving. As a result, we questioned the education awards for all 15 members, a total of
$29,275, because their eligibility had not been established.

Officials at Homey’s Youth Foundation offices in San Diego relied on program site
managers to determine citizenship or legal residency of members.                  When
grantees/subgrantees approve a member who has committed to serving in AmeriCorps
without ensuring the member is eligible, they may not only be doing a disservice to the
member but are inappropriately encumbering an AmeriCorps slot. HIPPY needs to ensure
that its grantee complies with grant terms, which include AmeriCorps provisions and the
Code of Federal Regulations (C.F.R.), as cited below.

Criteria

(1) AmeriCorps Provisions (2004-2005), Section A, Definitions, paragraph 14., states in part:

       Member means an individual:

       a. Who enrolled in an approved national service position;

       b. Who is a U.S. citizen, U.S. national or lawful permanent resident alien of
       the United States;

(2) AmeriCorps Special Provisions (2004-2005), subsection B.14., states in part:

       b. Verification. To verify U.S. citizenship, U.S. national status or, U.S.
       lawful permanent resident alien status, the Grantee must obtain and maintain
       documentation as required by 45 C.F.R. §2522.200 (b) and (c). The
       Corporation does not require programs to make and retain copies of the
       actual documents used to confirm age or citizenship eligibility requirements,
       such as driver license, or birth certificate as long as the Grantee has a
       consistent practice of identifying the documents that were reviewed and
       maintaining a record of the review.

(3) 45 C.F.R. §2522.200 (b) and (c), referenced above in the AmeriCorps Provisions, state:

       (b) Written declaration regarding high school diploma sufficient for
       enrollment. For purposes of enrollment, if an individual provides a written
       declaration under penalty of law that he or she meets the requirements in


                                             14
       paragraph (a) of this section relating to high school education, a program need
       not obtain additional documentation of that fact.

       (c) Primary documentation of status as a U.S. citizen or national. The
       following are acceptable forms of certifying status as a U.S. citizen or
       national:

               (1) A birth certificate showing that the individual was born in one of
               the 50 states, the District of Columbia, Puerto Rico, Guam, the U.S.
               Virgin Islands, American Samoa, or the Northern Mariana Islands;
               (2) A United States passport;
               (3) A report of birth abroad of a U.S. Citizen (FS-240) issued by the
               State Department;
               (4) A certificate of birth-foreign service (FS 545) issued by the State
               Department;
               (5) A certification of report of birth (DS-1350) issued by the State
               Department;
               (6) A certificate of naturalization (Form N-550 or N-570) issued by
               the Immigration and Naturalization Service; or
               (7) A certificate of citizenship (Form N-560 or N-561) issued by the
               Immigration and Naturalization Service.

This finding is also considered to be an internal control weakness.

Recommendations

Recommendation 3: The Corporation ensure that HIPPY subgrantees document member
eligibility before the subgrantee approve the members’ enrollment in Corporation systems.

Recommendation 4: The Corporation require that HIPPY ensure that the Homey Youth
Foundation retains copies of eligibility documents.

HIPPY’s Response

Homey Youth Foundation has ceased operation since the completion of the audit. HIPPY’s
new policy will require subgrantees to maintain eligibility documentation records at the
subgrantee sites, and HIPPY, using a checklist, will review documentation while performing
site visits. The checklists will be completed during the site visit and initialed by the
Executive Director.

Auditor’s Comment

We agree that the new procedures will help ensure that member eligibility documentation
will be available for review and that members are eligible prior to service. The Corporation
should obtain documentation to support the eligibility of the 15 members. Without the
documentation of eligibility, these members should not receive an education award.

                                              15
Finding 3:       HIPPY did not fully monitor subgrantee compliance with grant
provisions.

We found instances where subgrantee member documentation at Homey’s Youth Foundation
was lacking (or the function not performed), or submitted late. We tested 33 member files
for selected attributes, not all of which were applicable to each member, as highlighted in the
table that follows:

                                                             Files
                                                          Applicable                        Range of
              Exception Description                                   Exceptions
                                                          to Criteria                       Days Late
                                                         Requirement
    Enrollment forms approved within 30 days of                                               5 to 33
                                                               33                15
    member’s commitment                                                                      days late
    Exit forms submitted within 30 days of
                                                               15                 2            5 days
    completed service
    Mid-term evaluations completed for period
                                                               29                29              n/a
    when requirement was applicable.1
    End-of-term evaluations prepared                            8                 8              n/a

Homey Youth Foundation entered enrollment and exit forms into the Web Based Reporting
System (WBRS) late because its program officials in San Diego received the information late
from its program sites throughout California. In addition, its program officials were not
familiar with the requirement for performing mid-term evaluations. The remaining
exceptions were due to the program’s lack of adherence to the grant’s requirements.

Entering enrollment and exit information late can distort the information presented to the
Corporation, which in turn, is responsible for accurately and timely deobligating the Trust
account, which funds the education awards. Program officials must become familiar with
grant requirements ensure that they are met.. The Grantee and the subgrantee are not in
compliance with the provisions, and therefore we also consider this finding to be an internal
control weakness.

Criteria

AmeriCorps Special Provision, Section B.16., Reporting Requirements., in part, states:

          b. AmeriCorps Member-Related Forms. The Grantee is required to submit
          the following documents to the National Service Trust at the Corporation on
          forms provided by the Corporation. Grantees and Sub-Grantees may use
1
  Beginning with PY 2005/2006, mid-term evaluations were only required for Half Time and Full Time
members. Those committed to serving less hours, i.e. Reduced Half Time and Quarter Time were not
required to have mid-term evaluations. Although we tested 33 files, there were only 29 that required mid-
term evaluations per the provisions.


                                                    16
       WBRS to submit these forms electronically. Programs using WBRS must
       also maintain hard copies of the forms:

              i. Enrollment Forms. Enrollment forms must be submitted no later
              than 30 days after a member is enrolled….

              iii. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-
              Term-of-Service Forms must be submitted no later than 30 days after a
              member exits the program or finishes his/her term of service.

AmeriCorps Special Provision, Section IV.D. Training, Supervision and Support, state:

       6. Performance Reviews. The grantee must conduct and keep a record of at
       least a midterm and end-of-term written evaluation of each member's
       performance for Full and Half-Time members and an end-of-term written
       evaluation for less than Half-time members. The evaluation should focus on
       such factors as:

              a. Whether the member has completed the required number of hours;

              b. Whether the member has satisfactorily completed assignments; and

              c. Whether the member has met other performance criteria that were
              clearly communicated at the beginning of the term of service.

Recommendation

Recommendation 5: The Corporation ensure HIPPY effectively implements corrections that
assure member entrance and exit forms and evaluations are prepared and submitted on time.

HIPPY’s Response

HIPPY concurs with the finding and will implement procedures to test for entrance and exit
forms in its newly developed semiannual desk audits and in its review of randomly selected
member files.

Auditor’s Comment

We agree the actions described above should improve monitoring of subgrantees and help
detect noncompliance with requirements for timely submission of member entrance and exit
forms.




                                            17
Finding 4:     HIPPY submitted its Financial Status Reports (FSRs) late.

HIPPY did not submit any of its FSR’s on time, as shown in the table below.

    FSR Period
                         Required Date            Date Submitted          Days Late
     Covered
10/01/04 – 03/31/05          04/30/05                08/12/05                 104
04/01/05 – 09/30/05          10/30/05                12/16/05                 47
10/01/05 – 03/31/06          04/30/06                07/12/06                 73

Hippy representatives advised and we confirmed that they had great difficulty in submitting
the data into the Corporation’s systems although they had the information available to
submit. Late submission of FSRs was due primarily to difficulty experienced with eGrants,
although we are unsure whether HIPPY’s inexperience with eGrants was solely responsible
for the late FSRs. Corporation officials revealed during the exit conference that HIPPY’s
difficulties may have been caused by Corporation officials who did not perform timely
reviews and enter their approval of the prior FSR. We were further advised that a grantee
may not have been able to enter its subsequent FSR into eGrants until the Corporation
reviewed and approved the prior FSR.

As a result of the late reporting, the Corporation did not have accurate financial information
related to the HIPPY grant. The condition also caused HIPPY to be noncompliant with the
provisions of its grant. This finding is also considered to be an internal control weakness.

Criteria

AmeriCorps Special Provision, Section B.16., Reporting Requirements., states:

        a. Financial Status and Progress Reports. Progress and Financial Status
        reporting requirements in these Provisions apply only to the Grantee.
        Grantees are required to review, analyze, and follow up on progress and
        financial status reports they receive from AmeriCorps subgrantees or
        operating sites. Each Grantee must submit Progress and Financial Status
        Reports by the required due dates.

        Requests for extensions of reporting deadlines will be granted when 1) the
        report cannot be furnished in a timely manner for reasons legitimately
        beyond the control of the grantee and 2) the Corporation receives a request
        explaining the need for an extension before the due date of the report.

        Extensions of deadlines for FSRs (SF 269a) may only be granted by the
        Office of Grants Management, and extensions of deadlines for Progress
        Reports may only be granted by the AmeriCorps Program Office.



                                             18
              i. Financial Status Reports. The grantee shall submit semi-annual
              cumulative financial status reports summarizing expenditures during
              the reporting period using eGrants (Financial Status Reports menu
              tree). Financial Status Report deadlines are:

                Due Date                        Reporting Period Covered
                April 30                        Start of grant through March 31
                October 30                      April 1 – September 30

       A Grantee properly utilizing eGrants meets financial reporting requirements
       when the Grantee uses that system to submit reports within the approved time
       frames. A Grantee must set its own submission deadlines for its respective
       Sub-Grantees.

Recommendation

Recommendation 6: The Corporation should require its grant managers, in addition to any
standard notification procedures, to contact grantees whenever FSRs are substantially or
routinely overdue, determine and document the causes, and assist the grantee in overcoming
impediments to timely submission.

HIPPY’s Response

HIPPY concurs with the finding, but maintains that the problem existed on the part of the
Corporation’s application, which did not recognize receipt of the FSR. As a result, HIPPY
has designed alternative procedures to document when FSR’s are submitted in the event that
there is a technical problem with the Corporation’s application.

Auditor’s Comment

We agree the actions discussed above will help HIPPY document when it has submitted its
FSRs. The recommendation provides for Corporation grant managers to document these
problems and assist grantees in resolving the issues.




                                           19
Finding 5: Inaccurate reporting of FSRs

HIPPY incorrectly underreported expenditures from the onset of the grant. As of March 31,
2006, its understatement of expenditures amounted to $57,272. Conversely, HIPPY
overstated expenditures on its Report of Federal Cash Transactions (SF-272), a drawdown
request, by $9,538.

The grantee manually compiled its financial data for purposes of computing costs claimed on
the FSR and for the SF-272. Certain documentation was inadvertently omitted when HIPPY
prepared the FSR, which caused its expenditures to be understated. The grantee also
inadvertently overstated the SF-272 drawdown request on September 20, 2005, by including
the same invoice twice. This cost information had already been included in its drawdown
request of August 11, 2005, which caused HIPPY to drawdown $9,538 in excess of costs
incurred. These errors are further explained, as follows:

FSR- Data erroneously omitted from the compilation of the FSR are:


          Date of Invoice                     Amount                        Entity
              12-10-04                         $2,000                  Parent (HIPPY)
              12-03-04                          4,841                  Parent (HIPPY)
              12-03-04                          6,361               California Subgrantee
              09-22-04                         44,070                  Parent (HIPPY)

               Total                          $57,272

SF-272 The table below includes draw-down requests submitted through March 31, 2006:

                   Date of Request                Amount          Cumulative
                         03/30/2006                $13,783.84       $13,783.84
                         03/22/2006                 20,778.85        34,562.69
                         02/09/2006                  7,505.47        42,068.16
                         02/08/2006                 23,216.67        65,284.83
                         01/31/2006                  8,927.33        74,212.16
                         12/07/2005                 18,708.88        92,921.04
                         11/02/2005                 19,111.21       112,032.25
                         10/18/2005                 43,332.60       155,364.85
                         10/13/2005                 54,822.27       210,187.12
                         09/20/2005                  9,537.68       219,724.80
                         09/15/2005                 23,799.46       243,524.26
                         08/11/2005                 31,697.69       275,221.95
                 For brevity, 18 requests subsequent to 8/11/05 are not shown
                         09/22/2004                 44,070.16       532,706.61
                                      Total       $532,706.61



                                                    20
Criteria

AmeriCorps General Provision, sub section 22.a, states:

        General. The Grantee must maintain financial management systems that
        include standard accounting practices, sufficient internal controls, a clear
        audit trail and written cost allocation procedures as necessary. Financial
        management systems must be capable of distinguishing expenditures
        attributable to this Grant from expenditures not attributable to this Grant.
        This system must be able to identify costs by programmatic year and by
        budget category and to differentiate between direct and indirect costs or
        administrative costs. For further details about the Grantee's financial
        management responsibilities, refer to OMB Circular A-102 and its
        implementing regulations (45 C.F.R. 2543) or A-110 and its implementing
        regulations (45 C.F.R. 2541), as applicable.

This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 7: The Corporation should ensure HIPPY improves its controls to assure
more accurate reporting by reconciling costs claimed on the FSR to the accounting system.
One way to do improve its controls is for HIPPY to eliminate manual processing by
automating financial report preparation. This practice is within the capability of its existing
accounting software package.

HIPPY’s Response

HIPPY concurs with the finding and will use its software to produce automated data for FSR
submission. It will also implement a policy, effective immediately, which requires the
National Program Director to provide a copy of the completed drawdown, initialed by the
accountant, to the Executive Director. This will allow the Executive Director to verify its
accuracy.


Auditor’s Comment

The actions taken by HIPPY should improve financial reporting.




                                              21
Internal Control Finding

Finding 6: Ineffectively Segregated Duties.

Roles and duties at HIPPY and at one of its subgrantees, Homey’s Youth Foundation, have
not been segregated to safeguard assets and to detect misappropriation of assets in a timely
manner. The following weaknesses were identified during our review.

HIPPY’s Accountant/Program Administrator:


Receives cash receipts
   • Performs bank reconciliations
   • Has the ability to change receipts transactions in the general ledger

Prepares non-payroll checks
   • Maintains the general ledger

The subgrantee did not sufficiently segregate duties for staff members handling cash
disbursements. The Executive Director for Homey’s Youth Foundation has the ability to
perform the following functions:

   •   Approve his own purchases
   •   Post transactions to the general ledger
   •   Access blank checks
   •   Access printed checks
   •   Sign checks

The person who verifies the use of the funds also has access to all documentation needed to
initiate the use of funds. This lack of segregation could allow any unauthorized use of funds
to go undetected. Although our audit did not identify any unusual transactions, the existing
organizational structure leaves the entities with little control to ensure that unauthorized use
or misappropriation of funds would be detected in a timely manner.

Criteria

The 45 C.F.R. §2541.200, Standards for financial management systems, states in part:

        (b) The financial management systems of other grantees and subgrantees
        [other than a State government grantee] must meet the following standards…




                                                 22
        (3) Internal control. Effective control and accountability must be maintained
        for all grant and subgrant cash, real and personal property, and other assets.
        Grantees and subgrantees must adequately safeguard all such property and
        must assure that it is used solely for authorized purposes.


Recommendation

Recommendation 8: The Corporation ensure that HIPPY strengthens its controls and ensures
its subgrantees segregate duties to provide effective internal financial controls in accordance
with 45 C.F.R. §2541.200(b)(3). If reorganization is not practical to strengthen internal
controls, then the Corporation and HIPPY should consider increasing its testing during onsite
monitoring visits.



HIPPY’s Response

HIPPY concurs with the finding and notes that the subgrantee, which did not adequately
separate those roles, is no longer operating. HIPPY also notes that it will rely on increased
testing during its monitoring to mitigate weaknesses in the segregation of duties. Lastly,
segregation of duty issues identified at HIPPY will be addressed once a new Executive
Director is hired next year and the relocation of the national office is completed.

Auditor’s Comment

We agree that reliance on increased and more frequent testing will mitigate risks stemming
from internal control weaknesses related to segregation of duties. Once HIPPY hires its new
Executive Director, it should establish appropriate roles and duties for its accounting staff.




                                              23
Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibit A for the period
August 16, 2004 to March 31, 2006, we considered HIPPY's internal controls over financial
reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial schedules and not to provide an opinion on the internal controls over
financial reporting. However, we noted certain matters involving the internal control over
financial reporting that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could
adversely affect HIPPY's ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements. Compliance
findings numbered 1 through 6, as set forth in the Compliance and Internal Control Findings
Sections of this report, are also considered as internal control reportable conditions.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce, to a relatively low level, the risk
that misstatements caused by error or fraud in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Our consideration
of the internal control over financial reporting would not necessarily disclose all matters in
the internal controls that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are considered to be material weaknesses.
However, we believe all of the reportable conditions identified above represent material
weaknesses.




Mayer Hoffman McCann P.C.
Irvine, California
September 6,2006
                       Appendix A



            Response to the Draft Report by
Home Instruction for Parents of Preschool Youngsters, USA
    BOARD OF TRUSTEES
    CHAIR
    mane Keller Kessler                 M a Carol Bates
    Child Advocate                      Assistant Inspector General for Audit
    VICE-CHAIR
    Ann Marcheni                        Corporation for National and Community Service
    National Initiative on Children's   OWce of Inspector General
    Health Care Quality
    TREASURER
                                        1201 New York Avenue, NW Suite 830
    Thurman C. Gllls                    Washington, DC 20525
    Healthcare Consultant
    SECRETARY
    Penny Pensak                        Dear Ms. Bates:
    Former HIPPY Coordinator
    Diana M i s                         Please find our response below to the draft report on the Audit of the Corporation for National
    Clinical Psychologist
    h n c i A. Bobrow                   and Community Service Grant Awarded to Home Instruction for Parents of Preschool
    Psychologist                        Youngsters, USA.
    Deborah Gentry Davis
    The Gentry Davis Consulting Group
    Christopher Flares
                                        Page 12: Finding 1: HIPPY did not have adeauate financial monitoring o r other
    informationandCommunications        procedures in place to ensure that its sub grantees claimed costs in accordance with grant
    Technology Entrepreneur
    Linda Frank
                                        provisions o r OMB's principles.
    RBC Dain Rauscher
    Pamela James                        Page 13:     Recommendation 1: The Corporation determines the allowability of the
    National Louis Univenity
    Sylvia Martinez-Flores
                                        questioned costs, recover unallowable costs that were charged to the grant, including
    Chiid Development of Brazoria       administrative costs, and ensure that HIPPY improves its fiscal monitoring so that costs are
    County
                                        incurred and claimed in compliance with the cost principles and grant terms.
    Jeanene D. Perdue
    Arkansas Children's
    Hospital                            Recommendation 2: The Corporation ensure, in view of the prior lack of supporting
    Ronald F. Ries
    RSM McGladrey inc
                                        documentation, that HIPPY pay only that portion of future HOMEY invoices that a r e
    Carmen Velasquez                    supported by documentation sufficient to determine the allowability of submitted costs.
    Aiivio Medical Center
    IMMEDIATE PAST CHAIR                Concur
    Barbam Herman
    Community Activist                        We agree with the auditors in adequate fiscal monitoring of subgrantees is important and we
    EX-OFFICIO MEMBERS                  realize how important fiscal monitoring is for any organization. We had $19,960 questioned of
    Phyliis Snyder                      our $465,897 claimed total costs of which 15K is for Homey Youth Foundation which has gone
    National Council
    of Jewis? Women (NCJW)              out bf business since the audit.
    Gwen Welch                                   Homey Youth Foundation - To date, we have received an additional $8100 of $9006
    Field Representative                credit card receipts from Homey Youth Foundation, which were not available at the time of the
    Miriam Westheimer
    HIPPY International                 audit. We will share these findings with Doug Geny at the Office of Grants Management to make
    TRUSTEES EMERln                     the final decision. Any expense that cannot be clearly linked back to legitimate AmeriCorp
    Hillary Rodham Clinton              budget we'll pay the remaining balance. We have $4301 that was never advanced to Homey;
    United States Senate
                                        therefore any unallowable expenses can be deducted from these dollars.
    Avlma Lombard
    HIPPY Founder
    Nan Rich                            The unsupported personnel cost ($4820) for subgrantee "Advocates for Children" cost is not
    Florida State Senate                overstated. The costs were incorrectly calculated between salary lines. In November 2005, the
    Dr. Ruth Weslheimer
    Professor and Therapist             Program Director resigned and staffs were working from the following AmeriCorps Grant
                                        Provisions M3D, page 22. It states that grantees may transfer funds among approved direct cost




I   HIPPYUSA 220 East 23rd Street. S u i t e 300 New Y o r k , NY 10010 Telephone: 212.532.7730 Facsimile: 212.532.7899 www.hippyusa.org    1
categories when the cumulative amount of such transfers does not exceed 10 percent of the total
program budget. Staffs believed they could switch between salary lines as long as staff did not
go over 10% of the total salary line. We understand that you are concerned with these dollars
being the budget dollars verses the actual dollars. We will work on getting the backup of
timesheets and allocation of salaries charged.

Action Taken As A Result of the Audit: We did not wait for the final draft report to come out.
As Soon as we learned of these issues we took immediate action as sited below.
1. When these findings were presented to HIPPYUSA the organization had a HIPPYCorp Pre-
    Service Training coming up on August 7 - 8, 2006 in Jersey City, New Jersey. Adjustments
    were made to the Pre-Service Training to review program and fiscal monitoring as a result of
   the audit. All Americorp's' Directors and Assistant Directors were required to attend. On
    August 7, 2006 Mr. Gregory FT Winn, of the Corporation for National and Community
    Service provided a PowerPoint presentation on Documentation of Match Funding. There was
   a question and answer segment, which also included discussion on fiscal monitoring.   '8




Action Plans
1 . Desk Audits: Each state will be required to complete a desk audit twice a year of which one
    desk audit will be financial. States will be selected at random and will be required to submit
    the last month's financial records and supporting documentation.
2. Western Regional Conference - March 2007 - It has been suggested that there be a desk
    audit review session on the agenda and to review this past year's audit.
3. Alternative Solution: HIPPYUSA will come up with a plan by May 2006 when a new
executive director will be hired. This plan may include submission of copy of receipts as backup
along with a new fiscal monitoring form for subgrantees to track all expenditures. This form may
include date of expenditure, vendor, and purpose of expense and dollar amount. Appropriate
HIPPYUSA personnel would review this form for allowable funding and sign off on it. The
accounting personnel would ensure that organizations are reimbursed for the allowable cost. This
new procedure will prevent up front any unsupported credit card charges or unreconciled or
unallowable cost such as entertainment. This will also give the organization time to expedite a
new procedure with a new contract year.

Page 14: Findine 2: HLPPY did not have adequate procedures in lace to ensure that its
sub grantees documented member eligibilitv.

Page 15:    Recommendation 3: The Corporation ensures that HIPPY subgrantees
document member eligibility before the sub grantee approves the members' enrollment in
Corporation systems.

Recommendation 4: The Corporation requires that HTPPY ensure that the Homey Youth
Foundation retains copies of eligibility documents.

Concur
      We understand the importance of eligibility of documents; however we no longer are
working with Homey Youth Foundation as they have gone out of business. On September 5,
2006, Homey Youth Foundation secured 18 of 19 documents to provide proof of citizenship. We
forwarded these to the auditors, who could only accept 5 of these. The reasons they gave include
the following;
     1. Eleven were Driver Licenses and Social Security Cards, which we understand, are not
         acceptable forms of identification for federal funding.
    2. However three documents were from the Santa Barbara and Santee School District and
       only one was acceptable. The Human Resources Department verified employment,
       Drivers License and Social Security Card or stated proof of citizenship. They stated that
       personnel files are confidential and they would not send copies of documentation.
    3. The outstanding person (#19) was enrolled in the 2005-2006 programs and did not
       complete her service.

We will continue to do the following with sub grantees to ensure that all states are in requirement
of state law.
     1 . During the site visits a checklist will be provided and proof of citizenship and consistent
         practice of identifying the documents will be reviewed at the site. We will ensure that
         they maintain a record for our review. The Project Director or National Program Director
         will complete the site visit form. The executive director will initial. If for any reason
         they are not in compliance they will be notified in writing immediately that they must
         comply within 30 days to the national office or their status will be jeopardized'and we
         reserve the right to withhold funding. The National Program Director will ensure that a
         follow-up will take place, and will sign off on this.
    2. In March 2007, a Western Region Conference will take place for the training. As part of
         this training a review of adequate documentation will take place.
    3. Hope Baker, School Readiness Coordinator is now the new HIPPYCORP Director for the
         state of California as of the end of October 2006: As the new point person for California,
         she will be actively working on securing all of the eligibility documents. This should be
         con~pletedno later than January 1,2007.


Page 16:      Findine 3: HIPPY did not fully monitor sub grantee compliance with grant
provisions.

Recommendation 5: The Corporation ensures HIPPY effectively implements corrections
that assure member entrance and exit forms and evaluations are prepared and submitted
on time.

Concur
           We agree that member entrance and exit forms, along with evaluations should be
submitted on time. HIPPYUSA will not assure that Homey Youth Foundation completes this
task, as they have gone out of business.

Action That Has Been Developed As A Result of the Audit: Deadline Dates: All will be
completed by June 2007.
    1. Each state will be required to complete a desk audit twice a year. Oue will be a program
       audit and the other will be a financial audit.
    2. States will be selected at random and will be required to submit two member files and
       supporting documentation. This includes eligibility, time logs, enrollment forms,
       exitientrance forms and term of service forms, along with performance reviews.

Page: 18 Findinp 4: HIPPY submitted its Financials Status Reports (FSRs) late.

Page 19 Recommendation 6: The Corporation should require its grant managers, in
addition to any standard notification procedures, to contact grantees whenever FSRs are
substantially o r routinely overdue, determine and document the causes, and assist the
grantee in overcoming impediments to timely submission.
Concur
          We agree that this has been an issue, but the problem of lateness did not rest with
HIPPYUSA. We submitted all FSR's on time, but the eGrants system has not recognized these
reports on time. We have talked to our Grants Manager about how CNCS has fixed this at their
end: It is our understanding that the corporation has developed a new website and we should be
able to get a response back that has been received, which we will attach to each hard copy. If we
have any problems we will also fax a hard copy and have a receipt on file that it has been sent.

Finding 5: Inaccurate r e ~ o r t i n eof FSRs.

Page 21: Recommendation 7: The Corporation should ensure HIPPY improves its controls
to assure more accurate reporting by reconciling costs claimed on the FSR to the accounting
system. One way to do improve its controls is for HIPPY to eliminate manual proceasing by
automating financial report preparation. This practice is within the capability of its
existing accounting software package.

Concur
        We agree that the FSR's should be based on reports printed directly from QuickBooks
and this is how we will handle the reporting in the future. Our policy presently is before a draw
down is completed,it is approved by the National Program Director. In the future once the draw
down is completed, a copy of the draw down will be given to the executive director and the
accountant will verify it. This will be initialed and the accounting department will keep records
and perform reconciliation's. This will result in a check and balance. This procedure will start
immediately.

Paie: 22 Finding 6: Ineffectively Segregated Duties.

Recommendation 8: The Corporation ensure that HIPPY strengthens its controls and
ensures its subgrantees segregate duties to provide effective internal financial controls in
accordance with 45 C.F.R. 2541.200(b)(3). If reorganization is not practical to strengthen
internal controls, then the Corporation and HIPPY should consider increasing it's testing
during onsite monitoring visits.

Concur
         We understand the importance of internal controls and agree that division of financial
duties is a challenge in a small organization whether HIPPYUSA or other subgrantees. Homey
Youth Foundation is now out of business and it is the only subgrantee that came from a small
office. The other subgrantees are part of school districts and universities where segregated duties
amongst staffs have not been an issue.

Action Already Taken: We did not wait for the final draft report to come out. As soon as we
learned of these issues we took immediate action as sited below.
1. At the HIPPYCorp Pre-service in August 2006 Mr. Gregory FT Winn, Corporation for
    National and Community Service touched upon segregation of accounting duties during the
    questions and answer period. We will continue to use the sample checklist, which is
    available to all program staffs through AmeriCorp.
Future Plans.
I . As previously completed the CNCS monitoring tool will continue to be used as Project
    Director and National Program Director monitor sites. Instead of filing these reviews after
    each site visit, each review will be initialed by the executive director. If a site does not meet
    compliance, then a letter will be sent by the Project Director requiring compliance and if
    necessary a correction plan, which will be returned within 30 days. Failure to comply will
    allow HIPPYUSA to reserve the right to terminate our agreement with the party. The Project
    Director will complete follow-up. A summary monitoring tool will be kept to ensure that
    everything is completed. This will be completed by January 1,2007.
2. HIPPYUSA will further study their segregation of duties for audit resolution.

We believe that the internal control system at HIPPYUSA is adequate and is functioning as
intended. Since the national ofice will be moving next year, I believe any additional transition
should take place when the new executive director is hired. Please feel free to contact me during
this transition period to assist you at 212-532-7730 x 223 or e-mail me at sbenuett@hippyhsa.org.


Sincerely,




Sandee Bennett, MS, CTRS
Interim Executive Director

Cc: .   Doug Gerry
                                    Appendix B



Response to the Draft Report by the Corporation for National and Community Service
                                    coT~~~d"*AL            &
                                    COMMUWTTTV
                                    SERVICE


To:           Carol Bates. Acting 1nsoectol;Beneral
                                                                 ,
                                                                 + ~




From:         M                                                 gement

Cc:           ~ r i s t i n s a i nDirector
                                    ,       of w r p s
              Sherry Wright, Audit Resolution Coordinator, Office of the CFO

Date:         November 6,2006

Subject:      Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grant Awarded to Home Instruction for Parents of Preschool
              Youngsters, USA (HIPPWSA)


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to HIPPYUSA. We have received HIPPWSA's corrective action to date. They are
gathering supporting documentation for questioned costs and revised a pre-service training held
in August 2006 to review program and fiscal monitoring and documentation requirements for
match.

We do not have specific comments at this time. We will respond to all findings and
recommendations in our management decision when the final audit is issued; we have reviewed
the findings in detail; and worked with HIPPWSA to resolve the audit.




                           1201 New York Avenue, NW    *
                                                    Washington, DC 20525
                                                *
                                 202-606-5000 www.nationa1senice.org
                          Senior Corps   * AmeriCorps * Learn and Serve America
